OIG Investigative Reports, Dallas, TX.  May 22, 2013 - Dallas Woman Charged With Financial Aid Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
THE UNITED STATES ATTORNEY'S OFFICE
NORTHERN DISTRICT of TEXAS
NEWS
Dallas Woman Charged With Financial Aid Fraud
FOR IMMEDIATE RELEASE
May 22, 2013
DALLAS – Sussette Sheree Timmons, 30, of Dallas, was indicted by a federal grand jury yesterday on multiple counts of financial aid fraud, announced U.S. Attorney Sarah R. Saldaña of the Northern District of Texas.
The indictment alleges that Timmons applied for and received financial aid from six schools that offered distance learning programs via the Internet. Timmons allegedly never intended to use the disbursed financial aid funds for education and instead intended to embezzle, misapply, steal and obtain the funds for her own personal use.
Timmons applied for, and received financial aid from: New Mexico State University, Western New Mexico University, Ashford University, Northern New Mexico College, Coconino Community College and Pima Community College. She enrolled in classes at the schools and the awarded financial aid was applied to her tuition and fees.
As part of the financial aid, Timmons also received disbursement checks which she cashed, even though she had no intention of using those funds for authorized educational expenses and purposes. The indictment further alleges that Timmons not only did not intend to complete, but she did not complete any of the classes for which she enrolled, and she did not intend to pursue an education at the schools. When asked by the institutions to return or refund the financial aid, she refused. In 2011, when one of the schools suspended her financial aid, Timmons appealed. That school rejected her appeal, stating that she had withdrawn from 13 colleges or universities since 2009.
A federal indictment is an accusation by a grand jury and a defendant is entitled to the presumption of innocence unless proven guilty. The indictment charges Timmons with six counts of financial institution fraud. If convicted, each count carries a maximum statutory sentence of five years in federal prison and a $250,000 fine. In addition, restitution could be ordered.
The case is being investigated by the U.S. Department of Education Office of Inspector General. Assistant U.S. Attorney P.J. Meitl is in charge of the prosecution.
Top
Printable view
Last Modified: 06/19/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov